September 19, 2011

DOUG TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – Postal Service Work Rules and Compensation Systems
        (Report Number HR-AR-11-002)

This report presents the results of our audit of U.S. Postal Service work rules (Project
Number 10YG009HR000). Our objective was to determine the impact of labor union
contract provisions on the Postal Service’s ability to effectively and efficiently manage
its human resources. Specifically, we analyzed certain contract provisions that impact
carriers, retail clerks, plant clerks, and mail handlers. This self-initiated audit addresses
operational and financial risk. See Appendix A for additional information about this audit.

The Postal Reorganization Act (PRA) requires the Postal Service to engage in the
collective bargaining process. 1 Most Postal Service employees are represented by one
of four major unions. 2 The national union agreements include provisions that address
the way the Postal Service compensates and deploys its employees.

In addition to being constrained by contractual and legal obligations, the Postal Service
faces a number of challenges, which are compounded by the current economic
environment. This includes declining mail volume combined with a growing number of
delivery addresses. From fiscal year (FY) 2006 to FY 2010, mail volume declined
20 percent, from 213 billion pieces to 171 billion pieces while, on average, 1.4 million
new addresses have been added every year. As part of its action plan to address these
challenges, the Postal Service is pursuing workforce flexibility. 3 The Government
Accountability Office (GAO) also discussed the Postal Service’s need to address
workforce flexibility in its April 2010 report. Specifically, the report stated that the Postal
Service might be able to improve its financial viability by “taking more aggressive
actions to reduce costs and increase revenues within its current authority, using the
collective bargaining process to address wages, benefits, and workforce flexibility.” 4

The Postal Service has taken action to address some of these issues in the recent
collective bargaining process with the APWU. For example, the recently ratified
1
  39 U.S.C. § 1201(a).
2
  The American Postal Workers Union (APWU), the National Association of Letter Carriers (NALC), the National
Postal Mail Handlers Union (NPMHU), and the National Rural Letter Carriers’ Association (NRLCA).
3
  Ensuring a Viable Postal Service for America, An Action Plan for the Future, presented by the postmaster general
on March 2, 2010, at the Envisioning America’s Future Postal Service conference.
4
  U.S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability (Report Number
GAO 10-455, dated April 2010).
Postal Service Work Rules                                                                             HR-AR-11-002
 and Compensation Systems



contract 5 provides for increased flexibility by permitting non-traditional full-time
assignments of between 30 and 48 hours per week. Prior to the new agreement, the
only full-time schedule was the minimum 40 hours per week. It also allows for creation
of a new non-career position for Postal Support Employees (PSE). These employees
will be paid lower wages than career employees but higher wages than transitional
employees 6 and casuals. 7 The new APWU agreement allows for up to 20 percent of the
workforce in most functional areas of the clerk craft to be comprised of PSEs.

Finally, the Postal Service recently announced a proposal to request from congress
additional flexibilities to expand its ability to eliminate the lay-off provisions from its
collective bargaining agreements to allow significant reduction of the size of the
workforce.

Conclusion

We determined that certain contract provisions and compensation arrangements limit
the Postal Service’s ability to manage its human resources effectively and efficiently.
For example, management’s discretion is limited when temporarily assigning employees
across crafts. 8 In addition, limitations on the use of part-time employees reduce
workforce flexibility and increase workhours. Furthermore, we found that certain
contract provisions contribute to grievances filed by Postal Service unions.

Finally, delivery of the mail is the largest cost center in the Postal Service.
Approximately $30 billion is spent to deliver the mail annually. The three primary groups
of mail carriers (city, rural, and contract) have very different compensation systems and
performance standards. City carriers are generally paid by the hour, while rural and
contract carriers are generally paid by the route. Additionally, substitute carriers for each
group are paid differently. Performance standards for each group, when they exist, are
established differently as well.

To address these inconsistencies in carrier compensation and the associated
management limitations, management needs to conduct a study to determine optimum
standards for carrier performance and pursue the changes necessary to achieve a
compensation system that maximizes carrier efficiency. The inability to consistently use
compensation systems to efficiently manage letter carriers who spend most of their time
on the street rather than in the office is costly. We estimate the Postal Service could
potentially save more than $2.5 billion annually if it changed city letter carrier
compensation to match the compensation for rural carriers. Such a change could also

5
  Collective Bargaining Agreement Between APWU, AFL-CIO, and U.S. Postal Service; November 21, 2010, to
May 20, 2015, ratified May 11, 2011.
6
  An hourly rate, non-career bargaining unit employee hired and used for specific assignments according to the terms
of the employee’s respective collective bargaining agreement.
7
  A non-career, non-bargaining unit employee with a limited term appointment who performs duties assigned to
bargaining unit positions as described in the applicable national agreement or other collective bargaining agreements.
8
  Questions regarding the crossing of crafts arise when members of one craft are temporarily assigned to perform
work for which another craft is designated as the primary craft. Under such circumstances, management must meet
the contractual requirements for that cross-craft assignment.




                                                          2
Postal Service Work Rules                                                                                HR-AR-11-002
 and Compensation Systems



incentivize efficient performance. Additional potential savings could occur if the contract
routes are considered as part of the optimal delivery study, as these are even less
costly per delivery than either city or rural carrier routes.

Plant Clerks and Mail Handlers

Management at Postal Service plants is concerned that work rules inhibit their ability to
manage effectively. We contacted all 259 processing and distribution center (P&DC)
managers using a web survey and 152 (59 percent) responded. Of those responses,
118 (78 percent) indicated they “Strongly Agree” or “Agree” that contract provisions limit
their ability to manage the workforce effectively. Furthermore, 111 (72 percent) cited the
restriction on assigning employees across crafts as the one provision posing the biggest
challenge to workforce flexibility. Respondents indicated that the other contract
provisions that make it difficult to effectively manage the workforce are guaranteed
workhours, overtime, and the reassignment process. 9 In addition, 52 of 67 managers
who selected workhours and overtime as limiting strongly agreed that converting full-
time shifts to part-time would make it easier to manage more effectively. We determined
that from FY 2007 through August 10 of FY 2010, the Postal Service spent
approximately $29 million in grievance costs directly related to these contract
provisions. See Table 1.

                        Table 1. APWU and NPHMU Grievance Costs*
    Fiscal Year      Crossing Crafts Workhours Overtime Reassignments                                                Total
       2007               $3,667,263   $695,892 $2,062,122        $472,819                                         $6,898,096
       2008                3,839,332    521,656  2,235,643       6,051,145                                         12,647,776
       2009                3,587,503    437,505  1,697,956         768,304                                          6,491,268
       2010                1,475,647    366,782    481,928         945,571                                          3,269,928
       Total             $12,569,745 $2,021,835 $6,477,649     $8,237,839                                         $29,307,068
*As of August, FY 2010.
Source: Grievance Arbitration Tracking System.




9
  In the event of a reduction in force, the Postal Service can reassign certain employees to other positions or
locations.




                                                           3
Postal Service Work Rules                                                                                HR-AR-11-002
 and Compensation Systems



Retail Clerks

Some progress has been made in matching workload to workhours at retail facilities, but
challenges remain. We interviewed several postmasters, managers, and supervisors at
18 retail facilities. At these facilities, we observed management using Customer Service
Variance (CSV), Customer Service Adjusted Workload (CSAW), and Window
Operations Service (WOS) to monitor workhours. At 10 of the facilities, management
demonstrated how they identified opportunities to reduce workhours based on data from
these systems. Specifically, managers reduced workhours by staggering start times for
employees. This allowed them to align the workforce with the workload. Management
credited its success in accomplishing these workforce alignments to effective
collaboration with the local union representatives.

However, the emphasis on full-time employment and the 40-hour workweek guarantee
still make it difficult to efficiently manage resources. For example, management at
nine facilities stated the 40-hour workweek guarantee limited workforce flexibility. At
12 of the 18 facilities visited, management indicated that having more part-time
employees would improve their ability to manage the workforce.

APWU leadership and the Postal Service in the recently negotiated agreement took a
significant step toward relaxing the 40-hour workweek, providing managers with
increased flexibility to use more part-time employees. In doing so, they enhanced the
Postal Service’s ability to achieve operational efficiency goals and cost savings.

City and Rural Carriers

We determined the Postal Service has implemented initiatives aimed at reducing
delivery costs, such as aligning and adjusting carrier routes to match changing
workloads, implementing the City Delivery Pivoting Opportunity Model (CDPOM), 10 and
adjusting city carrier routes. In FY 2010, the Postal Service and the NALC agreed to a
Joint Alternate Route Adjustment Process 11 to address declines in mail volume.

However, even with these initiatives, delivery is still the major cost center at the Postal
Service. Approximately $99 million is spent each day delivering mail and cost savings in
this area have trailed other operations in the organization. Additionally, the nature of the
work that carriers perform makes managing their day-to-day activities challenging, as
they are out on the street for most of their day.

In reviewing the delivery options, we found that there are three primary groups that
deliver mail on a daily basis: city carriers, rural carriers, and contractors. However,
much of what these different groups do is very similar. All three pick up the mail at

10
   A scheduling tool that helps delivery managers deal with daily unstaffed routes by aligning available staff and
resources with delivery needs.
11
   Memorandum of Understanding dated April 29, 2010, between the NALC and the Postal Service. The parties
agreed to evaluate and adjust city delivery routes through a new jointly developed expedited evaluation and
adjustment process.




                                                           4
Postal Service Work Rules                                                                       HR-AR-11-002
 and Compensation Systems



delivery units, deliver mail to individuals and businesses throughout communities, and,
in some cases, return to the office when deliveries are completed.

Performance measurement and compensation of these three groups is done very
differently. City carriers are generally full-time employees and are guaranteed 40 hours
per week, 8 hours per day. The Postal Service is required to provide city carriers with
overtime pay for hours worked in excess of 40 in a given week. The sixth day of delivery
for a city carrier route is generally performed by a full-time employee who is a substitute
for multiple routes. This substitute carrier is paid at a similar (or sometimes higher) rate
than a regular carrier and receives full benefits. The standard for city carriers is
demonstrated performance, which is based on observation and agreement between the
union and management. Management monitors demonstrated performance by
observing work performed during scheduled time frames. Thus, it may not reflect the
capacity of a carrier to complete assigned work more efficiently.

The basic workweek for regular rural carriers varies based on the type of route delivered
and can be either 5 or 6 days a week, and daily schedules coincide with evaluation of
the routes as periodically adjusted. The rural carrier’s workday may vary above or below
the evaluation of the route, as mail volume fluctuates. The rural carrier is paid by route
and the cost for the route is based on an evaluation performed once per year. 12 Rural
carriers are paid overtime as part of their route, based on these route evaluations, over
the course of a year. A part-time employee who does not earn benefits generally
performs the sixth day of delivery for a rural carrier route.
The Postal Service contracts out a small group of carrier routes, having approximately
6,578 of these routes as of September 30, 2010. The rate for these routes is determined
primarily through a competitive bidding process, postal analysis of the route
composition, and contracting officer approval.

The similarities in carrier activities present opportunities to streamline and potentially
realize significant costs savings. Compensation systems that provide built-in efficiency
incentives are very useful, especially in environments where direct supervision is
difficult or impossible, such as when carriers are out on the street delivering mail.
Currently, the rural carrier compensation system and the contracted out delivery routes
provide such built-in incentives.

We determined that contract provisions regarding workhours and overtime pay for city
and rural carriers are different and limit the Postal Service’s ability to further reduce
delivery costs. Postal Service management acknowledged that neither the city nor the
rural compensation system is optimal.

In our analysis of city and rural compensation, we determined that the Postal Service
could save an estimated $2.5 billion annually if it changed city carrier compensation to

12
   The agreement between the Postal Service and NRLCA allows for an annual evaluation. The Postal Service may
forgo the option to perform the evaluation.




                                                       5
Postal Service Work Rules                                                                                  HR-AR-11-002
 and Compensation Systems



match that of rural carriers. We measured the relative productivity of city and rural
carriers and determined that, on average, the labor cost 13 per delivery for city carriers is
$0.095 more than the cost for rural carriers. About $1.4 billion 14 of the $2.5 billion is
attributable to the difference in pay and benefits associated with substitute carriers.

In addition to the comparison between city and rural compensation, we also identified
the costs for contracted delivery services to both the city and rural systems. We found
that the cost per delivery for these routes at $0.36 was even lower than that for rural
routes. Thus, we agree that there are likely additional savings to be gained from
transitioning to a more efficient optimal solution.

The difference in compensation systems has been reviewed in prior U.S. Postal Service
Office of Inspector General (OIG) reports, and management agreed a change to an
evaluated route system for city carriers is desirable but noted that achieving it would be
difficult. 15 We acknowledge that transitioning to a system incentivized for efficiency for
all carriers is a challenge that requires agreement between multiple organizations, but
we believe the large potential in associated savings and efficiency gains would more
than justify pursuing such a challenge.

In order to support this transition, the Postal Service needs better data on a delivery
system sized for optimal efficiency. Currently, Postal Service studies to determine
standards for the various aspects of a delivery activity are limited, out-of-date, or
otherwise not consistently usable. A full study to determine what an optimal route or
delivery would cost would be very beneficial to determine not only broad efficiency goals
for the delivery component but also individual standards for performance and
compensation for carriers.

Benchmarking

Recognizing that other organizations have experienced circumstances similar to the
Postal Service’s current situation, we commissioned a study to benchmark the Postal
Service against three private companies and one public entity, which also have
unionized workforces, to determine their success in relaxing contract provisions
affecting work schedules and assignment of employees based on changes in the
economy or on the companies’ financial condition. The three private companies were
able to modify practices related to work schedules and assignments. One company
implemented competitive operating agreements as part of its 2009 national agreement,
which also allowed the company to qualify for federal loans. The second company
entered bankruptcy and emerged with leaner operations and fewer unions. The third


13
   Labor costs include wages and benefits.
14
   We estimated the monetary impact associated with city delivery to be $1.4 billion by taking the difference between
                                                                                            th
the substitute costs per delivery for city and rural carriers and applying the result to 1/6 of the annual city deliveries
for FY 2010.
15
   Management of City Letter Carriers’ Street Performance (Report Number DR-MA-09-001(R), dated
March 26, 2009).




                                                             6
Postal Service Work Rules                                                          HR-AR-11-002
 and Compensation Systems



company established a new position that allowed more cross-crafting options. See
Appendix B for our detailed analysis of these topics.

We recommend the vice president, Labor Relations, pursue:

1. Additional increased flexibility to temporarily assign employees across crafts.

2. Improved workforce flexibility through non-traditional career options, such as
   emphasizing part-time employment as a career choice or modifying full-time
   assignments.

3. A comprehensive study to determine the optimal incentive-based carrier compensation
   system.

Management’s Comments

Management expressed concern that its comments, dated December 9, 2010, and
February 25, 2011, on prior versions of this draft report were ignored. They expressed
concern regarding the amount of monetary savings estimated by the OIG and the
method used to calculate potential monetary savings. Management identified results in
the OIG audit report, Modes of Delivery (Report Number DR-AR-11-006, dated July 7,
2011) as potentially conflicting with the results in this report. In addition, management
stated they discussed with the OIG other major differences that account for the cost
differential. They also stated that the collective bargaining process is
ongoing and expressed concern about the impact of this report on the collective
bargaining process.

Management did not state agreement or disagreement with recommendation 1, stating
that the issue of cross-craft flexibility is an old one that has substantial legal implications
that have not been discussed in the report. They re-emphasized the fact that each
national bargaining agreement reflects the long history of the PRA and the National
Labor Relations Board’s (NLRB’s) endorsements of management’s responsibility to
recognize the union as the exclusive bargaining representative of all bargaining unit
employees. However, management indicated that, despite contractual and legal
constraints, they have negotiated flexibility on cross-craft utilization and stated that they
continue their efforts to improve their ability to enhance their flexibility within legal and
contractual constraints.

Management did not state agreement or disagreement with recommendation 2;
however, they stated that a p art-time workforce in various postal operations has been a
major issue in its collective bargaining process. They indicated that they appreciated the
fact that the report acknowledges changes in the recent APWU national agreement that
addresses this issue. However, management stated the report failed to grasp the
significance of those changes, stating the new agreement provides for substantial
increases in highly flexible, non-career assignments of varying hours per week.
Management stated that these changes should fully satisfy the flexibility concerns



                                               7
Postal Service Work Rules                                                                               HR-AR-11-002
 and Compensation Systems



raised in the report with regard to both mail processing and retail clerks, and they have
already achieved much of the workforce flexibility that the report recommends they
pursue. Management also stated that negotiations with other bargaining units are
ongoing and that they are pursuing greater workforce flexibility in those negotiations.

Management disagreed with recommendation 3, stating there is no rational basis for the
savings estimate in the report. They also stated that any such change would have to be
negotiated and the NALC has demonstrated a firm, historic opposition to such changes.
Management further stated they are already in collective bargaining negotiations at this
time and are pursuing significant changes to address critical Posatal Service needs.

See Appendix G for management’s comments in their entirety.

Evaluation of Management’s Comments

Although management expressed concern that their comments and concerns were
ignored, we have closely evaluated every comment and concern raised and have made
changes as appropriate. We met with management on multiple occasions in an effort to
identify other factors that could explain the cost differential between rural and city carrier
compensation. Although management discussed many potential factors, including
modes of delivery 16 and substitute carriers, they were consistently unable to provide any
supporting documentation or analysis that demonstrated the impact of these factors on
the difference in carrier compensation. W e conducted our own substantial additional
analysis to assess some of these factors as suggested by management and, as
indicated in the report, our additional analysis identified that about $1.4 billion of the
$2.5 billion is attributable to the difference in pay and benefits associated with substitute
carriers.

In addition, we attempted to evaluate whether we could relate costs of various modes of
delivery to carrier compensation systems. We found that, although costly door-to-door
delivery was more common among city carriers, the least expensive mode of delivery,
centralized delivery, 17 was also much more common among city carriers. Because
management was unable to provide any data analysis of their own to support their
contention in this area and our analysis showed some balance among most and least
costly delivery modes, we did not make an adjustment for that factor. As a result of our
findings and the significant analyses that were conducted in support of the findings, we
continue to believe opportunities exist to achieve significant savings in this area.

With regard to management’s assertion that the collective bargaining process is


16
   Management cited one of the seven recommendations in the OIG audit report titled Modes of Delivery (Report
Number DR-AR-11-006, dated July 7, 2011) as potentially conflicting with the recommendations of this report. In this
report, we identified potential cost savings of $4.5 billion by converting door-to-door delivery to curbside delivery,
which management disagreed with. The potential savings identified in this report relate to the compensation system
and the related composition of the delivery workforce.
17
   This is also known as cluster box delivery.




                                                           8
Postal Service Work Rules                                                          HR-AR-11-002
 and Compensation Systems



ongoing and concern about the impact of this report on the collective bargaining
process, we note that the OIG has a responsibility to conduct its work independent of
the current political, social or economic environment. Labor costs comprise
approximately 80 percent of Postal Service costs and the OIG does not have the option
to not examine such a large portion of the Postal Service’s costs.

Although management did not state whether they agree or disagree with
recommendations 1 and 2, we consider their ongoing and planned actions at least
partially responsive to the recommendations. We recognize the Postal Service has
negotiated some flexibility on cross-craft utilization and some increases in part-time
assignments. We also agree that the new positions negotiated in the recent agreement
with the APWU will enhance that flexibility significantly. Consistent with our
recommendation, management stated they would continue to pursue opportunities to
achieve additional flexibility in other crafts, and we believe this will result in opportunities
for the Postal Service to realize additional efficiencies and cost savings.

We consider management’s comments regarding recommendation 3 non-responsive.
Management stated their reason for rejecting the recommendation was because such
changes would have to be negotiated and the NALC has demonstrated firm opposition
to such changes. In the report, we acknowledged that transitioning to a system
incentivized for efficiency for all carriers is a challenge that would require agreement
among multiple organizations but, as we stated, we believe the large potential for
associated savings and efficiency gains would more than justify pursuing such a
challenge.

However, most importantly, the recommendation was for management to conduct a
study to determine the optimal compensation system. Conducting the study would not
involve union negotiations but would provide support for the Postal Service in its pursuit
of greater efficiency. During the audit, we requested any recent studies regarding carrier
compensation and efficiency and were informed that there were no recent
comprehensive studies on the subject. Also, in our discussions with management
regarding the many factors that impact current carrier compensation systems, they
acknowledged that neither of these systems is optimal. As a result, we believe a
comprehensive study of this issue is warranted, especially considering the growing
number of addresses to which the Postal Service delivers and its current financial crisis.

The OIG considers all the recommendations significant, therefore, requires OIG
concurrence before closure. Recommendations 1 and 2 are considered closed based
on ongoing and planned actions by management to pursue additional flexibility. We will
conduct future work in this area to evaluate management’s planned actions. Regarding
recommendation 3, the OIG does not plan to formally pursue audit resolution; however,
we will conduct further discussions with management to determine the feasibility of
implementing the recommendation as stated, as we believe a comprehensive study of
carrier compensation would identify efficiencies that will assist the Postal Service in
reducing costs.




                                               9
Postal Service Work Rules                                                   HR-AR-11-002
 and Compensation Systems



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.
     E-Signed by Mark Duda
  VERIFY authenticity with e-Sign




Mark W . Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Dean J. Granholm
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management




                                          10
Postal Service Work Rules                                                                         HR-AR-11-002
 and Compensation Systems



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The PRA requires the Postal Service to bargain with its unions on wages, hours, and
working conditions. Most Postal Service employees are represented by one of four
major unions. The national union agreements include provisions that address how the
Postal Service can deploy its employees. For example, certain contract provisions, like
the ones described below, dictate when management can assign employees across
crafts, 18 how many hours employees can work, how employees are compensated, who
is assigned to perform overtime work, and who is reassigned in the event of employee
reductions.

Cross-Crafting: An extensive collective bargaining history and various legal
requirements based on the National Labor Relations Act, the PRA and an executive
order recognizing craft lines has posed numerous challenges with regard to assigning
craft work. For example, as a result of the PRA, the Postal Service must recognize the
four major unions as the exclusive bargaining representative for their respective
employees. In an effort to eliminate restrictions on cross-crafting, the Postal Service
filed a petition with the NLRB in 1981 to create a single union. This petition was denied
and management and the unions established mail processing work assignment
guidelines to address the issue of correctly designating the right craft to perform
specified work.

Existing contract provisions discuss the circumstances under which management may
assign employees across crafts temporarily. Generally, contract provisions regarding
assigning employees across crafts require that work performed by employees in one
craft not be performed by an employee in another. Furthermore, in the event of
insufficient work or exceptionally heavy workloads, management may assign employees
to any available work at the same wage level for which the employee is qualified.
According to arbitrator Richard Bloch, management can use situations where
employees cannot attain their respective workhour guarantees (such as insufficient
work) or there is an exceptionally heavy workload, but only when those situations are
unusual and reasonably unforeseeable. 19 These exceptions are not intended to provide
management with a tool to maximize efficient use of personnel, such as reducing
overtime.

Reassignments: In the event of a reduction in force, the Postal Service can reassign
certain employees to other positions. The process for reassigning these employees
involves qualification requirements as well as various union and employee notifications,
which are required up to 6 months in advance. In addition, the Postal Service has to
adhere to numerous special provisions pertaining to the different scenarios where
18
   Employees are organized along craft lines. The APWU represents clerks, motor vehicle operators, building and
equipment maintenance personnel, and vehicle maintenance personnel; the NALC represents city delivery carriers;
the NPHMU represents mail handlers; and the NRLCA represents rural delivery carriers.
19
   Arbitration between the Postal Service and the APWU, H8S-5F-C 8027, April 7, 1982.




                                                       11
Postal Service Work Rules                                                                               HR-AR-11-002
 and Compensation Systems



reassignments can take place, such as reassignments within an installation or
consolidation of an installation. These special provisions involve seniority, bidding
rights, distance of reassignment from original location, employees’ rights to return to
original location, separation of casuals, and r eduction in part-time flexible hours.

Workhours: The Postal Service guarantees an 8-hour workday and a 40-hour workweek
for many of its full-time bargaining unit employees. For certain clerk positions, the
workflow is not conducive to an 8-hour workday. For example, clerks help prepare the
mail for delivery in the morning and then experience a long interlude before carriers
return to the station and they can prepare mail for dispatch to the plant. Under the new
2010-2015 APWU national agreement, employees hired as of May 11, 2011, are
subject to a non-traditional full-time assignment, which allows for 30-48 scheduled
workhours per week.

The Fair Labor Standards Act (FLSA) requires the Postal Service to work an employee
no more than 40 hours per workweek, unless they compensate any hours in excess of
40 at one and one-half times the employee’s regular rate. 20 This rule applies to most
Postal Service bargaining unit employees, including city carriers; however, rural carriers
are exempt from this requirement. 21 Pursuant to an agr eement made as a result of
collective bargaining between the Postal Service and the NRLCA, rural carriers use an
evaluated route system. Under this system, they are paid for overtime worked over the
course of 1 year, but not overtime worked over the course of 1 week, unless the rural
carrier works more than 12 hours in 1 day, or 56 hours in a particular workweek. 22
Evaluation of a rural route is determined by: 1) mail volume, 2) daily miles traveled,
3) number of boxes served, and 4) fixed or variable time allowances. Annual mail
counts are considered a key element of the evaluated compensation method. The mail
counts include all classes of mail handled by each rural carrier and are performed daily
during a specific period each year as identified by the agreement. The Postal Service
completed the most recent National Rural Mail Count from February 27 to
March 12, 2010.

Various studies have addressed the subject of Postal Service carrier compensation
systems. For example, the Postal Regulatory Commission (PRC) conducted three
studies related to Postal Service costs. These studies included evaluations of city and
rural carrier compensation costs. 23

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the impact of labor union contract provisions on the
Postal Service’s ability to effectively and efficiently manage its human resources.

20
   FLSA, Section 7(a) (1).
21
   FLSA, Section 7(b) (2).
22
   NRLCA Collective Bargaining Agreement, Article 9.2.A.1.i.
23
   National Assessment of the Postal Service, September 25, 2007; A Cost Comparison of Serving Rural and Urban
Areas, April 20, 1993; and Rural Delivery and the Universal Service Obligation: A Quantitative Investigation, July 31,
1992.




                                                          12
Postal Service Work Rules                                                        HR-AR-11-002
 and Compensation Systems



Specifically, we analyzed the contract provisions that impact carriers, retail clerks, plant
clerks, and mail handlers. This analysis included compensation issues related to city
and rural carriers. We expanded our objective to include a comparison of job
performance activities between city and rural carriers.

To accomplish our objective, we reviewed applicable collective bargaining agreements,
policies, procedures, handbooks, and other pertinent documentation. We surveyed
P&DC managers on the contract provisions that limit workforce flexibility. We
interviewed headquarters and field managers regarding contract provisions and the
nationwide management of city and rural delivery. We analyzed the impact of
substitutes on the relative costs of delivering city and rural routes. We compared
activities performed to accomplish the tasks associated with delivery for city and rural
carriers.

Additionally, we obtained access to the Postal Service information and data systems
necessary to perform our work. For example, we obtained grievance costs related to
contract provisions from the Grievance Arbitration Tracking System (GATS). We
reviewed information recorded by managers in the CSV, CSAW, and management
systems. We obtained city and rural carrier workhour data to determine the amount of
overtime paid to city and rural carriers and the WOS data for clerk operations from the
Enterprise Data Warehouse (EDW). We judgmentally sampled seven high-performing,
six average, and six under-performing units in three districts to observe operations and
interviewed management to identify factors limiting workforce flexibility.

We commissioned a study to benchmark Postal Service contract provisions against
three private companies and one public entity, which have unionized workforces, to
determine their success in relaxing contract provisions based on changes in the
economy or on the companies’ financial condition. Criteria for selecting benchmarking
organizations included a large unionized workforce, limits on the ability to strike, and
economic distress.

We conducted this performance audit from November 2009 through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 22, 2010, and included
their comments where appropriate.

To perform this audit we relied on computer-generated data from the GATS. The OIG
has previously tested the accuracy of GATS data by performing transaction tests, which
included tracing selected information to supporting source records. We also relied on
data obtained from CSV, CSAW, and the WOS. We did not audit the CSV, CSAW, and
the WOS but performed limited data integrity tests to support our data reliance. In



                                             13
     Postal Service Work Rules                                                  HR-AR-11-002
      and Compensation Systems



     addition, we assessed the reliability of EDW data by reviewing existing documentation
     related to the data sources and performed reasonableness checks of the data extracted
     from EDW to determine if control totals matched. Additionally, we interviewed Postal
     Service officials knowledgeable about the data. Based on these tests, we determined
     the data was sufficiently reliable for the purposes of the audit.

     PRIOR AUDIT COVERAGE

                                      Final Report
  Report Title      Report Number         Date                      Report Results
Efficiency of       MS-AR-10-004       7/28/2010     We determined the Postal Service could
Retail                                               reduce workhours for retail customer
Customer                                             service by 14.3 million, resulting in an
Service                                              annual cost avoidance of $613.7 million.
Operations
Benchmarking        EN-MA-10-004        6/7/2010     Postal Service employees work under
Best Practices                                       collective bargaining agreements that
with Presort                                         ensure full-time pay, although full-time work
Bureaus                                              may not be available. Presort mailers
                                                     maintained a flexible workforce based on
                                                     volume and assigned employees across
                                                     crafts. Management agreed and there were
                                                     no recommendations.
Management          DR-MA-09-001       3/26/2009     We recommended the Postal Service study
of City Letter          (R)                          the costs and benefits of converting the
Carriers’ Street                                     existing city letter carrier hourly
Performance                                          compensation system to an evaluated
                                                     compensation system. Management stated
                                                     the concept of moving city carrier hourly
                                                     compensation to an evaluated
                                                     compensation system is desirable;
                                                     however, previous efforts to move in this
                                                     direction were unsuccessful. Management
                                                     plans to continue studying the feasibility
                                                     and exploring options to move city letter
                                                     carriers to a compensation system more
                                                     like that of the rural carriers.
Benchmarking         EN-MA-09-002      3/31/2009     We recommended the Postal Service
Postal Service                                       review the benefits of negotiating to
Parcel                                               establish work standards and productivity
Productivity                                         measures for work activities and look for
                                                     opportunities to promote continuous flow in
                                                     processing operations. Management
                                                     agreed with the recommendations.




                                              14
    Postal Service Work Rules                                                HR-AR-11-002
     and Compensation Systems




                                   Final Report
 Report Title      Report Number       Date                     Report Results
U.S. Postal        GAO-10-624T      4/15/2010     The GAO reported that congress and the
Service:                                          Postal Service need to pursue strategies
Action Needed                                     and options necessary to make progress.
to Facilitate                                     The Postal Service and congress urgently
Financial                                         need to require that any binding arbitration
Viability                                         resulting from collective bargaining
                                                  consider the Postal Service’s financial
                                                  condition.




                                           15
Postal Service Work Rules                                                                              HR-AR-11-002
 and Compensation Systems



                                 APPENDIX B: DETAILED ANALYSIS

Plant Clerks and Mail Handlers

To understand the contract provisions impacting P&DC managers, we contacted all
259 managers using a web survey. The results indicated that these managers are
limited by contract provisions. Provisions cited as particulary impactful are assigning
employees across crafts, guaranteed workhours, overtime, and reassignments. They
also indicated that converting full-time shifts to part-time would make it easier to
manage more effectively.

There have been numerous arbitration hearings on the issue of assigning employees
across crafts due, in part, to the phrasing of the contract language. For example,
applying the condition of “insufficient work” and “exceptionally heavy workload periods,”
which are not clearly defined, has been the basis for many arbitration decisions. In
addition, one national arbitrator determined that management’s right to assign
employees across crafts is “substantially limited.” 24 This limitation is further
compounded given that combining work among different wage levels also poses a
challenge for management. In recent decisions, issues concerning the assignment of
employees across crafts and overtime were raised (for example, when mail handlers
could work overtime instead of having clerks perform the work). One arbitrator indicated
that, in these circumstances, the Postal Service is forced to balance its obligations to
run an efficient operation against its requirement for overtime. 25

The GAO stated in its April 2010 report that certain contract provisions “limit the USPS’s
flexibility to manage work efficiently and right size its workforce” and current collective
bargaining agreements “limit managers from assigning work to employees outside of
their crafts, such as having a retail clerk deliver mail.” 26

Additionally, an OIG report stated the Postal Service has limited workforce flexibility at
its processing facilities compared to benchmarked companies. 27 The benchmarked
companies predominantly use part-time employees in 4-hour shifts, assign schedules
based on work volumes, and assign employees across crafts in response to workload.
In addition, the GAO recently identified workforce flexibility as an issue preventing
progress toward financial viability. 28 The decline in mail volume and implementation of
tour consolidations within the P&DCs emphasize the need for flexibility in assigning
employees across crafts. Pursuing changes to contract provisions for assigning
employees across crafts would provide managers with greater flexibility to move
employees between crafts during periods of down time. Management acknowledged

24
   Arbitration between the Postal Service and the APWU, H8S-5F-C 8027, April 7, 1982.
25
   Arbitration between the Postal Service and the NPMHU, A00M-1AC 08261985, November 13, 2009.
26
   U.S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability (Report Number
GAO 10-455, dated April 2010).
27
   Benchmarking Postal Service Parcel Productivity (Report Number EN-MA-09-002, dated March 31, 2009).
28
   Postal Service: Action Needed to Facilitate Financial Viability (Report Number GAO-10-624T, dated
April 15, 2010).




                                                         16
Postal Service Work Rules                                                                              HR-AR-11-002
 and Compensation Systems



difficulties with the existing process. We determined the Postal Service disbursed
approximately $29 million in grievance costs from FY 2007 through August of 2010
directly related to assigning employees across crafts, workhours, and reassignment
issues. Relaxing these contract provisions could potentially reduce these costs.

Retail Clerks

We determined that greater workforce flexibility would help postmasters, managers, and
supervisors better manage the workforce and align it with the workload. We visited 18
retail facilities and observed management using the CSV, CSAW, and WOS systems to
optimize the workforce and monitor workhours. At 10 of the facilities, management
identified opportunities to reduce workhours based on data from these systems.
However, management at nine facilities stated the 40-hour workweek guarantee limited
workforce flexibility and, at 12 of the 18 facilities visited, management indicated that
having more part-time employees would improve their ability to manage the workforce.
At facilities where managers were able to modify workforce distribution, they engaged
local union representatives in the decision-making process. Our benchmarking study
also identified this method as a best practice to achieving change.

In the OIG report titled Efficiency of Retail Customer Service Operations
(Report Number MS-AR-10-004, dated July 28, 2010) we determined the Postal Service
could reduce retail customer service workhours by 14.3 million, resulting in an annual
cost avoidance of $613.7 million. This would also result in the Postal Service achieving
its goal of improving operational efficiency to 93 percent. 29 The report identified four
opportunities to improve efficiency and realize workhour savings, including:

      Implementing best practices for Retail Customer Service operations at all facilities.

      Exploring opportunities to consolidate business mail acceptance operations at post
       offices, stations, and branches.

      Periodically evaluating operating efficiency by assessing performance against
       productivity targets and adjusting resources in response to workload changes.

      Re-deploying employees, as appropriate, to facilities where there is sufficient
       workload to support the workhours.

Under the new 2010-2015 APWU national agreement, the Postal Service has
addressed some aspects of workforce flexibility by adding Non-Traditional Full-Time
duty assignments, which allow between 30-48 scheduled workhours per week.
Continued efforts to increase flexibility and use more part-time employees in other crafts
would improve efficiency and provide for additional cost savings to the Postal Service.



29
     The lowest of the FY 2009 Retail Customer Service efficiency performance goals established by area offices.




                                                           17
   Postal Service Work Rules                                                                             HR-AR-11-002
    and Compensation Systems




   City and Rural Carriers

   The Postal Service is required by law to provide prompt, reliable, and efficient service
   to, as nearly as practicable, the entire U.S. population. 30 It is also required to maintain
   an efficient mail collection system. Provisions in Postal Service appropriations include
   mandatory 6-days-a-week delivery 31 and certain levels of rural mail delivery. Table 2
   illustrates how the type of carrier route affects delivery costs for city and rural delivery in
   FY 2010.

        Table 2. Cost and Delivery Information for City, Rural, and Contract Delivery
                                Services Routes, FY 2010 32
                                                                                                                 Average
                    Salary and                          Delivery          Average                                 Annual
                                    Number of                                                Number of
Carrier Type         Benefits                            Points          Deliveries                              National
                                     Routes                                                   Carriers
                     (billions)                        (millions)        per Route                               Cost per
                                                                                                                 Address
                                                                                             Career:
                                                                                             192,200
City delivery         $15.6*          150,800             88.0               584                                   $201
                                                                                           Casual/Temp:
                                                                                              8,400
                                                                                             Career:
                                                                                              66,800
Rural delivery         $5.9            74,500             40.1               538                                   $169
                                                                                           Non-Career:
                                                                                              51,800
* Numbers rounded

   We determined that contract provisions regarding workhours and overtime pay
   limit management’s ability to control delivery costs. We measured the relative
   productivity of city and rural carriers and determined that, on average, the labor cost per
   delivery for city carriers is $0.095 more than the cost for rural carriers. Based on
   FY 2010 data, we estimated the Postal Service could potentially save $2.5 billion in
   FY 2011 and $2.6 billion in FY 2012 if city routes were evaluated and compensated like
   rural routes. See Appendices C and D for our methodology in calculating these savings
   and monetary impact.

   From FYs 2007 to 2009, the Postal Service paid about $42.3 million in city carrier
   grievances related to overtime issues compared to roughly $113,000 in grievances paid


   30
      39 U.S.C. § 101(a) and 39 U.S.C. § 403(b).
   31
      Consolidated Appropriations Act, 2010 (Public Law 111–117, December 16, 2009). Note: On March 30, 2010, the
   Postal Service requested an advisory opinion from the PRC on its proposal for removing the 6-day delivery mandate
   and replacing it with 5-day delivery. On March 24, 2011, the PRC issued its advisory opinion stating that the Postal
   Service had overstated the estimated annual net savings resulting from the removal of the 6-day mandate by
   $1.4 billion.
   32
      We obtained the data from multiple sources including the EDW, Postal Service management, the Intelligent Mail
   and Address Quality (IMAQ) system, and 2010 Postal Service Annual Report.




                                                            18
Postal Service Work Rules                                                                         HR-AR-11-002
 and Compensation Systems



to rural carriers. The variance in these costs relates to the difference in compensation
methods applied to city and rural carriers.

City carriers’ compensation is consistent with traditional compensation methods as
stated in the FLSA. However, the NRLCA and the Postal Service agreed on an FLSA
exception that allows rural carriers to be compensated on an evaluated basis. It is
important to note that any effort by the Postal Service to effect a similar FLSA exception
with the NALC must be pursued through the collective bargaining process, consistent
with the national agreements.

The Postal Service has taken action to improve delivery efficiency, such as aligning and
adjusting carrier routes to match changing workload, implementing the CDPOM, and
adjusting city carrier routes. These efforts eliminated nearly 10 million delivery
workhours while absorbing 2.7 million additional deliveries between FYs 2006 and
2008. In addition, in FY 2010, the Postal Service reached an agreement with the NALC
to establish a Joint Alternate Route Adjustment Process to address declines in mail
volume. 33 While Postal Service officials have taken steps to increase efficiency in
response to declines in mail volume, additional opportunities exist to improve
management’s controls over delivery costs by pursuing changes in the compensation
method used to pay city carriers.

In addition to the cost savings associated with moving to an evaluated compensation
system for city carriers, such a change would also enable the Postal Service to better
match city carrier schedules to workload and incentivize efficient delivery. It would also
provide at least a partial solution to the inherent difficulties of supervising a distributed
workforce. In our prior work on this topic, we reported on the issue of supervisors not
consistently conducting required street observations of city carriers primarily because of
higher priority work and limited staffing.

Delivery Standards

Postal Service officials explained that addressing some of the broader differences between
city and rural delivery would be more meaningful than our comparison of the compensation
systems. Specifically, the standard for city carriers is demonstrated performance, while for
rural carriers it is an evaluated basis. They further explained that weaknesses exist in both
systems. For example, the demonstrated performance standard for city carriers may not
reflect the capacity of a carrier to complete assigned work more efficiently, since it is based
solely on management’s observations of work performed during scheduled time frames.
With regard to the evaluated system used for rural carriers, it may impose a time standard
that is unrealistic because it is based on mail counts performed once a year. Postal Service
officials acknowledged that since the standards are subject to negotiation and agreement it
is difficult to modify outdated practices that may be inefficient. Consequently, the Postal

33
  Memorandum of Understanding between the NALC and the Postal Service, dated April 29, 2010. The parties
agreed to evaluate and adjust city delivery routes through a new jointly developed expedited evaluation and
adjustment process.




                                                       19
Postal Service Work Rules                                                          HR-AR-11-002
 and Compensation Systems



Service is reluctant to fund analysis. They informed us that they have budgeted for this type
of analysis on two occasions; however, the financial condition of the Postal Service has
prevented funding approval.

We documented carrier activities for city and rural carriers and discussed these
activities with Postal Service delivery officials. These officials cited several activities that
were different for city and rural carriers; however, most of the carriers’ activities are
similar. Additionally, any differences that exist may be more related to the geographic
location of the carrier than the carrier’s craft, as we noted that slight differences are not
uncommon within a craft. We documented carrier activities in respective flowcharts. See
Appendix E.

Carrier costs, standards, and performance are interrelated. A practical long-term
approach to addressing the costs and ultimately determining the optimum compensation
system for carriers may require evaluating how contract carriers and carriers in both
crafts accomplish their work and assimilating the results.

Benchmarking

Recognizing that other organizations have experienced circumstances similar to the
Postal Service’s current situation — a declining market share compounded by economic
uncertainty — we commissioned a benchmarking study to identify these organizations
and determine their success in changing established contract provisions in response to
the economy. We selected four organizations for benchmarking, three of which
succeeded in effecting change to established contract provisions. We found that
challenges existed in the relationships between labor and management in each of these
organizations. For example, concessions were gained at two of the organizations only
at or after bankruptcy. At these organizations, local negotiation and implementation
were keys to overall success, once the national agreements facilitated cooperation. The
third organization obtained limited concessions with assigning employees across crafts
and hours of work, while the fourth has achieved none. See Appendix F for a summary
of benchmarking results.




                                               20
Postal Service Work Rules                                                                                HR-AR-11-002
 and Compensation Systems



     APPENDIX C: COST SAVINGS IF CITY CARRIER ROUTES ARE CONVERTED TO
                        AN EVALUATED ROUTE SYSTEM

To determine potential cost savings if management evaluates city delivery carriers
routes and compensates those carriers like rural route carriers, we queried the Payroll
Hours Summary report in the EDW system. The report provides year-to-date (YTD)
workhours, the YTD hourly rate, and the average combined salary plus benefit cost per
workhour. We obtained this information for the entire Postal Service. The time period
specified in the query was September 2010, so we obtained YTD amounts for FY 2010
and determined there were 302 delivery days during that period.

From the results of the query, we were able to obtain national total YTD workhours and
the national average total labor cost per workhour for both city and rural delivery. We
also obtained IMAQ system statistics from management for the number of total city and
rural daily delivery points and the number of total city and rural routes.

We performed the following calculations for both city and rural delivery:

     Daily deliveries x 302 delivery days = total deliveries, FY 2010.

     Total deliveries/total workhours = average deliveries per workhour.

     National average labor cost per workhour/average deliveries per workhour = national
      average labor cost per delivery.

These calculations resulted in:

     City average labor cost per delivery = $0.591.

     Rural average labor cost per delivery = $0.496.

     A calculated difference in average labor cost per delivery between city and rural of
      $0.095. 34

We then estimated the cost savings from converting city routes to evaluated routes.
Under the assumption that management could convert all city routes to evaluated routes
immediately, we determined the number of city deliveries per year by multiplying the city
daily deliveries by 302 delivery days per year and determined:

     87,578,760 35 daily deliveries x 302 delivery days = 26,448,785,520 deliveries per
      year.

34
   Ideally, we would have preferred to calculate the cost difference attributable solely to the difference in the method
of route evaluation and compensation between city and rural delivery. In theory, there may be an effect related to the
difference in the delivery type mix between city and rural delivery. Given the information available, we were unable to
account for any effect of this type.
35
   FY 2009 data from the Postal Service’s IMAQ system.




                                                           21
Postal Service Work Rules                                                   HR-AR-11-002
 and Compensation Systems



   The cost savings in FY 2010 dollars = 26,448,785,520 deliveries x $0.095 per
    delivery = $2,506,041,926.

To determine total cost savings for FYs 2011 and 2012, we escalated the calculated
FY 2010 savings by the currently published Postal Service annual labor escalation rate
of 1.7 percent for each year. We totaled the results for FYs 2011 and 2012. See
Appendix D.

                 Table 3. Total Estimated FYs 2011 and 2012 Savings

                       FY 2011 Estimated        FY 2012 Estimated
                            Savings                  Savings
                        $2,548,644,639           $2,591,971,598




                                           22
Postal Service Work Rules                                                                       HR-AR-11-002
 and Compensation System


                                   APPENDIX D: MONETARY IMPACT

                  Finding              Impact Category                                   Amount
         Converting City Carrier    Funds Put to Better Use 36                        $2,591,971,598
         Compensation System to an
         Evaluated Basis in FY 2012




36
     Funds that could be used more efficiently by implementing recommended actions.

                                                         23
                                               Restricted Information
Postal Service Work Rules                                     HR-AR-11-002
 and Compensation Systems


              APPENDIX E: CITY AND RURAL CARRIER FLOWCHARTS




                                   24
Postal Service Work Rules        HR-AR-11-002
 and Compensation Systems




                            25
Postal Service Work Rules                                                                              HR-AR-11-002
 and Compensation Systems



                          APPENDIX F: BENCHMARKING RESULTS


    Factor           Company 1                  Company 2                  Company 3                  Company 4

Hours of Work   Now has complete           Has the flexibility to     Achieved some              Has many restrictions
                flexibility to modify      modify plant shifts as     flexibility in work        on assigning work
                plants shifts as           necessary, including       scheduling in its 2004     schedules. For
                necessary, including       introduction of four       agreements but does        example, start times
                introducing four           10-hour workday            not have similar           for delivery routes in
                10-hour workday            schedules.                 flexibility in all union   the same facility must
                schedules and                                         agreements.                be the same.
                equipment                                                                        Management must
                maintenance                                                                      give 48 hours’ notice
                schedules that                                                                   to assign an
                include weekend days                                                             employee to a
                with no pay premium.                                                             different shift.
Posting and     New rules establish        Contract provisions        The company is             Filling job vacancies
Reassignment    the order of priority in   frequently give plant      constrained in             is tightly based on
                filling job vacancies      managers the               reassigning                seniority. This
                for employees laid off     flexibility to take        employees if work is       especially hampers
                from closed plants         action to maintain         transferred more than      retail counter service,
                and existing               operational efficiency.    30 miles.                  since these valued
                employees within                                                                 positions are not
                specified                                                                        necessarily filled by
                geographical areas.                                                              persons most suitable
                                                                                                 for working with the
                                                                                                 public.
Work            Implemented                Combined skilled           Introduced a utility       An employee in one
Assignments     agreements which           trade classifications to   worker position that       bargaining unit may
                have reduced number        create only two-three      could be assigned          not perform the work
                of skilled work            skilled trades in each     multiple tasks in its      of another bargaining
                classifications and        plant. Many non-core       agreement with the         unit employee. If this
                introduced team work       job functions have         American Service           happens, the
                concepts to increase       been outsourced.           Workers Council;           company is liable to
                efficiency by                                         however, achieving         pay a member of the
                facilitating more                                     flexibility in assigning   correct bargaining
                sharing of tasks                                      employees across           unit based on the time
                among teams of                                        crafts is difficult        required to perform
                employees with                                        because the                the work. The
                different skills.                                     employees are              company must
                                                                      represented by many        maintain a separate
                                                                      different unions.          contingent of relief
                                                                                                 workers for each
                                                                                                 bargaining unit at a
                                                                                                 facility.
"No Layoff"     The Job Security           Management                 Provides income            Employees are
                Program, through           eliminated the Job         protection for closure     protected against
                which the company          Security Program.          of a route, reduction      layoff and guaranteed
                provided job security,     Employees now may          in frequency, closure      full wages and
                was eliminated.            be laid off and they       of a maintenance           benefits. In the event
                Employees may be           are provided the           shop facility, or          of a facility closure,
                laid off and they are      option of a limited        transfer of work from      they are not required
                provided a reduced         period of                  the facility to another    to accept an
                level of income            supplemental               facility more than         alternative position if
                protection for up to       unemployment               30 miles away.             it is more than
                2 years.                   benefits or a one-time     Allowances are based       25 miles away.
                                           supplemental               on years of service.
                                           severance payment.



                                                        26
Postal Service Work Rules                                   HR-AR-11-002
 and Compensation Systems


                        Appendix G: Management’s Comments




                                       27
Postal Service Work Rules        HR-AR-11-002
 and Compensation Systems




                            28
Postal Service Work Rules        HR-AR-11-002
 and Compensation Systems




                            29
Postal Service Work Rules        HR-AR-11-002
 and Compensation Systems




                            30
